CERTIFICATE OF COMPLIANCE
Case No. 19-1135
Caption: DIGNITY HEALTH d/b/a MERCY SAN
JUAN MEDICAL CENTER v. EVAN MINTON,
As required by Supreme Court Rule 33.1(h), I
certify that the document contains 7,620 words,
excluding the parts of the document that are
exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Executed on July 15, 2020.

Record Press, Inc.

Sworn to before me on
July 15, 2020
ALESSANDRA KANE
Notary Public, State of New York
No. 01KA6340521
Qualified in Richmond County
Commission Expires April 18, 2024

Notary Public

